Before the Committee on Environment and Public Works
United States Senate


                          Status of the Department
For Release on Delivery
Expected at
10:00 a.m. EDT
Wednesday
September 18, 2013        of Transportation’s Actions
                          To Address Subtitle C of
CC-2013-031



                          the Moving Ahead for
                          Progress in the 21st
                          Century Act
                          Statement of
                          Joseph W. Comé
                          Assistant Inspector General for Highway
                            and Transit Audits
                          U.S. Department of Transportation
Chairman Boxer, Ranking Member Vitter, and Members of the Committee:

Thank you for the opportunity to testify today on the Department of Transportation’s
(DOT) actions to carry out provisions in Subtitle C of the Moving Ahead for Progress in
the 21st Century Act (MAP-21), 1 which calls for accelerating project delivery through
increased innovation and efficient project planning, design, construction, and financing.
MAP-21 requires our office to assess and report periodically to Congress on the steps the
Department has taken to administer Subtitle C. Over the next 3 years, we plan to conduct
a series of audits of the Department’s project delivery reforms. 2 In a May 2013 letter to
your Committee and the House Committee on Transportation and Infrastructure, we
reported on the results of our first review. 3 The focus of our initial review was to
proactively provide status information to congressional and other stakeholders on (1) the
Department’s plans to carry out provisions of MAP-21, Subtitle C; (2) the status of
planned actions; and (3) key challenges that could delay the Department’s
implementation of those plans. We also sought to create a baseline of planned actions to
guide our future audit work, which will provide a more comprehensive assessment of
DOT’s actions. 4

My statement today focuses on what we found in our initial review—recognizing that the
Federal Highway Administration (FHWA), the Federal Transit Administration (FTA),
and the Office of the Secretary of Transportation (OST) continue to actively work on
Subtitle C in real time and that our initial review reflected a snapshot in time.

IN SUMMARY
DOT developed a plan with 42 actions to implement all required sections of Subtitle C.
At the time of our May 2013 letter, the Department had completed five actions, most of
which address environmental issues that occur during the planning and design phase of
highway and transit projects. However, the plan did not assign estimated completion
dates for all actions unless the statute specified such milestones. Establishing target dates
whenever feasible would provide a management tool to promote accountability for timely
completion of these efforts, and allow Congress, States, and other stakeholders to gauge
the Department’s progress. Based on a status update that the Department provided us on
September 11, 2013, the Department reports that two additional planned actions have
been completed, and it established additional completion dates for four actions. Despite
the Department’s steady progress in meeting certain MAP-21 rulemaking milestones, we
identified a number of delays that the Department had already encountered with issuing
some Subtitle C rules. In its September 2013 update, the Department reported that it has

1
  Pub. L. No. 112-141 (2012), Division A, Title I, Subtitle C.
2
  OIG Audit Announcement, “Audit Initiated of DOT’s Implementation of MAP-21 Acceleration of Project Delivery
Provisions,” Nov. 28, 2012.
3
  “Letter to Congress on the Status of MAP-21, Subtitle C: Acceleration of Project Delivery,” May 22, 2013.
4
  Our May letter focused on actions completed as of March 27, 2013. We did not perform audit procedures to confirm the actual
status of the planned actions or assess the effectiveness of actions taken, as this was beyond the scope of our initial review.

                                                                                                                                  1
experienced delays in completing eight rulemakings. The attachment, from our May
letter, shows the 42 actions planned to implement Subtitle C and the status of each one, as
of March 27, 2013.

BACKGROUND
MAP-21 is the first long-term surface transportation authorization since 2005. The
legislation was signed into law in July 2012 and effective as of October 1, 2012. MAP-21
provided $105 billion for fiscal years 2013 and 2014. According to FHWA, complex
federally funded highway projects can take approximately 13 years to complete (from
planning to construction). Subtitle C directs the Department to identify and promote
reforms that will reduce the time and funding needed to plan, design, and construct
surface transportation projects. Most but not all of Subtitle C’s project delivery reforms
relate to environmental issues during the planning and design phase of highway and
transit projects.

DOT’s plans for implementing the Subtitle C sections range from developing and issuing
regulations, some of which are required by law, to issuing guidance, developing
memorandums of agreement, preparing congressional reports, or other initiatives. See
table 1 for a list of Subtitle C sections.

Table 1. Sections in Subtitle C of MAP-21
Section   Title
1301      Declaration of Policy and Project Delivery Initiative
1302      Advance Acquisition of Real Property Interests
1303      Letting of Contracts—Construction Manager/General Contractor
1304      Innovative Project Delivery Methods
1305      Efficient Environmental Reviews for Project Decisionmaking
1306      Accelerated Decisionmaking
1307      Assistance to Affected Federal and State Agencies
1308      Limitations on Claims
1309      Accelerating Completion of Complex Projects Within 4 Years
1310      Integration of Planning and Environmental Review
1311      Development of Programmatic Mitigation Plans
1312      State Assumption of Responsibility for Categorical Exclusions
1313      Surface Transportation Project Delivery Program
1314      Application of Categorical Exclusions for Multimodal Projects
1315      Categorical Exclusions in Emergencies
1316      Categorical Exclusions for Projects Within the Right-of-Way
1317      Categorical Exclusion for Projects of Limited Federal Assistance
1318      Programmatic Agreements and Additional Categorical Exclusions
1319      Accelerated Decisionmaking in Environmental Reviews

                                                                                         2
Section       Title
1320          Memoranda of Agency Agreements for Early Coordination
1321          Environmental Procedures Initiative
1323          Review of Federal Project and Program Delivery
Source: MAP-21

To develop and issue regulations, the Administrative Procedure Act (APA) generally
requires agencies to publish a notice of proposed rulemaking (NPRM) in the Federal
Register, allow a comment period, issue a final rule with a statement of its basis and
purpose, and publish a final rule at least 30 days before it becomes effective. APA allows
agencies to issue final rules without the use of an NPRM in certain cases, including when
the agency determines for “good cause” that notice and comment procedures are
“impracticable, unnecessary, or contrary to the public interest.” The Office of
Management and Budget (OMB) reviews “significant” proposed and final rules, 5 from
agencies other than independent regulatory agencies, before they are published in the
Federal Register. 6 OMB ultimately determines whether a rule is significant—an action
that can extend the time to complete a rulemaking.

THE DEPARTMENT COMPLETED SOME ACTIONS DEFINED IN ITS
PLAN
To comply with MAP-21, which went into effect on October 1, 2012, DOT completed a
plan with 42 actions for implementing Subtitle C requirements. As of March 27, 2013
(when we completed work on our initial audit), the Department had completed five of
those actions:

• published an NPRM and final rule for Section 1315(a) on the use of categorical
  exclusions (CE) to expedite projects after a disaster or other emergency,

• issued guidance on innovations to improve project delivery identified in Section 1304,

• completed an initial report on the National Environmental Policy Act (NEPA) and
  projects for Section 1306

• surveyed and reported on the use of CEs for Section 1318, and

• completed interim guidance on accelerated decision making for environmental
  reviews for Section 1319.


5
  Significant rulemakings are those that have an annual economic effect of $100 million or more; could adversely affect the
environment, public health or safety, actions of another agency, or a government program or policy; or create a legal issue or
other material impact.
6
  Executive Order 12866 (reaffirmed by Executive Order 13563).

                                                                                                                                 3
According to the Department, 34 of the remaining 37 planned actions were under way at
the time of our May letter. 7 The Department also reported making substantial progress on
many of them, even if final actions are not yet complete. For example, the Department
met the statutory deadline for issuing an NPRM for Sections 1316 and 1317 on the use of
CEs for projects within the right-of-way and projects with limited Federal assistance. The
final rule has yet to be published. Rulemaking for Section 1318 on the use of additional
types of CEs was also in progress but significantly behind schedule. In this instance,
Department officials explained that an NPRM for Section 1318 cannot be completed until
an analysis is performed on the survey results, which was still being conducted. The
NPRM has yet to be published.

Department officials told us that they had not begun work on the remaining three planned
actions: establishing a best practices clearing house related to accelerated project
delivery, developing guidance on integrating planning and environmental reviews, and
reporting on the types of and justification for additional CEs. The Department stated that
it has not begun these three actions because other actions either have a higher priority or
need to be completed before it can start these actions.

On September 11, 2013, the Department provided us a status update on its planned
actions, which we have not yet verified. According to the Department, it has completed
two additional planned actions—guidance for Section 1301 on the Relocation
Streamlining Demonstration Project and guidance for Section 1302 on advance
acquisition of real property interests. The Department also noted that it has made
additional progress on several planned actions, including issuing an NPRM for Section
1313 on the Surface Transportation Project Delivery Program, and submitting to OMB an
advanced notice of proposed rulemaking related to Section 1315 on using CEs for
emergencies.

THE DEPARTMENT DID NOT ASSIGN COMPLETION DATES FOR
SEVERAL ACTIONS IN ITS MAP-21 PLANS
While the Department developed plans to implement all required sections within Subtitle
C (Sections 1301-1323), 8 it did not assign estimated completion dates to a number of
planned actions, including final rulemakings, new guidance, and other program
initiatives. Without estimated completion dates, the Department is missing an opportunity
to effectively track these efforts and gauge the Department’s progress. In its September
2013 update, the Department stated that is has established four additional completion
dates for planned actions. For example, the Department reported that it established some
additional target dates related to guidance and rulemakings.

7
  The Department provided information on the status of its 34 actions shown as “in progress.” We did not verify the status of the
planned actions or assess the effectiveness of actions taken, as this was beyond the scope of our initial review.
8
  Section 1322 requires actions from the Government Accountability Office (GAO), so we have not included this section in our
summary of DOT’s action plans.

                                                                                                                               4
OST, FHWA, and FTA are coordinating the Department’s Subtitle C plans, which fall
within the following five general categories:

• Congressionally Required Rulemakings: According to the Department, it plans to
  issue eight congressionally required rules to streamline the environmental review
  process used on Federal highway and transit projects. To meet the statutory deadlines,
  the Department prioritized rules that were congressionally required. For example, the
  Department issued a congressionally required NPRM and a final rule for Section
  1315, which qualified emergency repair projects to be eligible for categorical
  exclusions. In its September 2013 update, the Department reported that it established
  additional completion dates for two final rules.

• Department-Initiated Rulemakings: The Department planned to develop three
  additional rules to implement certain sections of Subtitle C, including early
  acquisition of right-of-way, contract letting, and environmental planning. For
  example, the Department plans to issue a new rule to implement Section 1303, which
  will permit a newer type of contracting method called construction manager/general
  contractor. 9 The Department estimated NPRM completion dates for all three planned
  rules but did not set estimated dates for publishing the final rules.

• Congressionally Mandated Reports: The Department’s plans call for five categories
  of reports to inform Congress or other interested parties of the status of environmental
  actions taken. Four of the five report types have congressionally mandated due dates.
  For example, Section 1306 directs the Department to issue a report to Congress at
  least every 120 days on the NEPA status of projects. The Department issued an initial
  report in March 2013. The next one will be due in October 2013. However, the
  Department did not have a planned completion date for the remaining report type,
  which will convey the results of a Departmental review to assess and develop
  consistent environmental permit and procurement procedures, as required by Section
  1321.

• Guidance: The Department identified 16 planned actions to issue new or modify
  existing guidance to assist States and others managing Federal projects. As of March
  2013, the Department had issued guidance for 2 of these 16 actions. However, the
  Department did not have estimated completion dates for the remaining 14 actions. In
  its September 2013 update, the Department reported that it established dates for two
  planned actions related to guidance.

• Other Initiatives: The Department included three other initiatives in its plan— one
  covering Section 1318 on programmatic agreements and additional CEs, and two to
  address Section 1301 on the declaration of policy and project delivery. While the

9
  The construction manager/general contractor project delivery method allows an owner to engage a construction manager during
the design process to provide input that helps the owner design a more constructible project.

                                                                                                                            5
       Department completed the Section 1318 initiative, it had not formalized a schedule
       for the 1301 initiatives at the time of our May 2013 letter.

Department officials stated that their first priority was to publish statutorily required
rules, focusing on those with congressionally mandated deadlines, and to prepare
required reports with deadlines. The Department would then focus on self-initiated
rulemakings for sections that add new provisions or alter existing regulations. After that,
the Department would develop and publish guidance while working on other initiatives
identified in its plans. Department officials noted that given the high priority placed on
rulemakings, they did not set milestones for other planned actions. They also noted that
legal requirements in the rulemaking process, the inability to predict the time needed to
complete the various rulemaking stages, and OMB’s designation of a rule as
“significant” 10 influenced their decision to defer setting milestones for some final rules.

While we agree that the Department’s decision to focus first on rulemakings and required
reports was reasonable, establishing milestone dates whenever feasible would provide
useful information to key stakeholders and a management tool to promote accountability
for timely completion of these efforts. Further, the legal requirements of the rulemaking
process do not preclude estimating completion dates. Establishing such dates for final
rules and for guidance and reporting requirements is important to help the Department
better manage the rulemaking and guidance process and allow its stakeholders to
effectively plan to implement the new rulemakings and guidance. For example, if States
can better gauge when FHWA plans to complete a certain action, they can more readily
incorporate new legislative provisions in their project plans and specifications.

DOT MAY NOT COMPLETE REQUIRED RULEMAKINGS BY THE
STATUTORILY SET DATES
The Department may not complete required rulemakings by the statutorily set dates, due
in part to the nature of rulemaking. Completing parts of the rulemaking process and
coordinating steps that involve other Federal agencies can take considerable time. Despite
the Department’s progress in meeting certain MAP-21 rulemaking milestones, our initial
review showed that the Department was already experiencing delays with implementing
some mandated rules. In its September 2013 update, the Department reported that it has
experienced additional delays in completing eight rulemakings. Highway and transit
industry associations and State officials also noted that a lack of early, interactive
communication with them may increase the number of formal comments and the time to
complete rulemakings.




10
     OMB may define a rule as “significant,” which, according to the Department, would add 3 to 6 months of review time.

                                                                                                                           6
Completing Rulemakings Can Take Considerable Time, and Some Subtitle
C Rules Have Been Delayed
A 2009 GAO case study reviewed 16 Federal rulemakings at various agencies and found
that they took approximately 4 years on average to complete. 11 DOT’s four rules
averaged just over 3 years from initiation to final publication. We also reviewed three
other rules issued by FHWA and FTA under previous surface transportation
authorization, which had similar results. These three rules took an average of just over
5 years from initiation to final publication. Given the time periods involved in the
Department’s prior rulemakings, it may be optimistic to assume that the Department can
complete the remaining required Subtitle C rulemaking milestones established within the
2 year legislative life of MAP-21.

We also identified a number of delays that the Department was already encountering with
issuing some Subtitle C rules. For example, the Department missed the congressionally
mandated requirement to issue an NPRM by January 2013 for Section 1318 on additional
CEs suggested by stakeholders—and publication continues to be delayed. Department
officials explained that there were many challenges to issuing this NPRM, including the
requirement to complete the survey and publish a report after soliciting ideas for new CEs
from stakeholders. These actions must be completed before it can issue a rule to further
expand the types of CEs that can be used on Federal projects. In addition, this section
may be designated as “significant” by OMB, which would require additional reviews and
further impact the timeframe for both the NPRM and the final rule.

In its September 2013 status update, the Department stated that eight of its rulemakings
have been delayed. For example, the Department has submitted to OMB an advanced
notice of proposed rulemaking related to Section 1315 on using CEs for emergencies, but
the publication date for the NPRM is planned for later this month—a delay of about 3
months.

Transportation Industry Stakeholders Believe That Interactive Dialogue
With the Department Could Help Expedite Rulemakings
According to DOT officials, the Department made considerable outreach efforts related
to MAP-21 implementation, including webinars, question and answer sessions, and other
presentations conducted by FHWA and FTA. However, highway and transit industry
associations 12 and State officials told us that outreach efforts tended to be Web-based,
public forums that did not allow for sufficient informal, peer-to-peer dialogue prior to the
NPRM. They indicated that—similar to prior transportation authorizations—early,
interactive dialogue with the Department might reduce the time to respond to formal
11
   GAO Report, Federal Rulemaking: Improvements Needed to Monitoring and Evaluation of Rules Development as Well as to
the Transparency of OMB Regulatory Reviews (GAO-09-205), Apr. 20, 2009. The case study included DOT and other agencies
such as the Environmental Protection Agency, Food and Drug Administration, and Securities and Exchange Commission.
12
   The highway and transit organizations we spoke with are the American Association of State Highway and Transportation
Officials (AASHTO) and the American Public Transportation Association (APTA).

                                                                                                                     7
comments. State officials also noted a lack of notification from the Department
concerning upcoming NPRMs as well as guidance and other relevant documents on
FHWA’s MAP-21 Web site.

CONCLUSION
The Department developed a plan that addresses all MAP-21 Subtitle C provisions.
However, as our initial assessment reveals, timely completion of planned actions could
advance States’ and other stakeholders’ management of Federal projects and better
achieve the intended benefits of MAP-21’s innovation and streamlining provisions.
Efforts by the Department to ensure the timely completion of rulemakings, guidance,
program initiatives, and reports to Congress will be key to successful implementation of
MAP-21. Accordingly, we will continue to assess the Department’s actions to implement
Subtitle C and carry out our statutory mandate to audit the Department’s efforts over
time.

That concludes my testimony. I will be happy to answer any questions you may have.




                                                                                      8
ATTACHMENT. THE DEPARTMENT’S PLANNED ACTIONS TO IMPLEMENT MAP-21 SUBTITLE C,
AS OF MARCH 27, 2013
This table from our May 2013 letter provides the status of the Department’s planned actions as of March 27, 2013. We did not verify the
Department’s progress since our May letter, as it was not within the scope of our initial review.


                                                                                  Anticipated
                                                                                  Completion
                               Other      Type of        Deliverable              Date (Bold =
                               Modes      Deliverable/   According to the         Statutory
 Section Title      Lead       Involved   Action*        Department               Deadline)      Status According to the Department
 1301:              1-OST      FHWA,      Initiative:    Identify and advance     None at this   Not started. FHWA’s Every Day Counts 2
 Declaration of                FTA        Best           the use of best          time           creates inventory of best practices. OST may
 Policy and                               Practices      practices.                              establish a “dashboard” site for posting best
 Project Delivery                                                                                practices. FTA has not taken any action to
 Initiative                                                                                      implement this section.
                    2-FHWA                Guidance       Guidance on              None at this   In progress. Initiating drafting of
                                                         Relocation               time           demonstration project in FHWA.
                                                         Streamlining
                                                         Demonstration Project
                                                         to address 1301(b)(4).
                    3-FHWA                Initiative:    Solicitation /           None at this   In progress.
                                          MOAs           Memorandums of           time
                                                         Agreement (MOAs) for
                                                         Relocation
                                                         Streamlining
                                                         Demonstration Project
                                                         to address 1301(b)(4).
 1302: Advance      4-FHWA                Guidance       Guidance on advance      None at this   In progress. Draft under coordination in
 Acquisition of                                          acquisition of real      time           FHWA.
 Real Property                                           property interests.
 Interests
                    5-FHWA                Rulemaking     Regulation on            NPRM 10/13     In progress. Early draft in coordination in
                                                         advance acquisition of   FR None at     FHWA.
                                                         ROW.                     this time



Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                        9
                                                                               Anticipated
                                                                               Completion
                             Other      Type of        Deliverable             Date (Bold =
                             Modes      Deliverable/   According to the        Statutory
Section Title      Lead      Involved   Action*        Department              Deadline)      Status According to the Department
1303: Letting of   6-FHWA               Rulemaking     Regulation on           NPRM 8/13      In progress. Draft NPRM and rulemaking
Contracts -                                            Construction Manager    FR None at     schedule under development.
Construction                                           / General Contractor    this time
Manager /                                              contracting.
General
Contractor
1304: Innovative   7-FHWA               Guidance       Guidance on             10/1/2012      Complete. Guidance issued on 10/1/12 as a
Project Delivery                                       increased Federal                      Q&A document.
Methods                                                share for innovation.

1305: Efficient    8-FHWA    FTA,       Required       Rulemaking to allow     NPRM 6/14      In progress. A future decision is pending to
Environmental                OST        Rulemaking     for the use of          FR None at     determine whether Section 1305 rulemaking
Reviews for                                            programmatic            this time      will be initiated as separate rule, or
Project                                                approaches to                          incorporated into the “clean-up” rulemaking in
Decisionmaking                                         conduct environmental                  connection with other MAP-21 provisions.
                                                       reviews.

                   9-FHWA    FTA        Guidance       Guidance on             None at this   In progress. Guidance being developed to
                                                       designation of lead     time           address multiple changes to 23 U.S.C. 139,
                                                       agency for multimodal                  including this section. Guidance drafted and
                                                       projects to address                    in review by program offices.
                                                       1305(a).
                   10-FHWA   FTA        Guidance       Guidance on efficient   None at this   In progress. Guidance on lead agency
                                                       environmental reviews   time           designation is expected as part of DOT NEPA
                                                       / Federal lead agency                  Order that is in development. Guidance
                                                       to address 1305(b).                    drafted and in review by program offices.


                   11-FHWA   FTA        Guidance       Guidance on efficient   None at this   In progress. Guidance drafted and in review
                                                       environmental reviews   time           by program offices.
                                                       to address
                                                       1305(c),(d), and (e).


Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                   10
                                                                                    Anticipated
                                                                                    Completion
                              Other      Type of         Deliverable                Date (Bold =
                              Modes      Deliverable/    According to the           Statutory
Section Title      Lead       Involved   Action*         Department                 Deadline)       Status According to the Department
1306:              12-FHWA,              Congressional   Report to Congress at      Every 120       Complete. Initial report issued on March 14,
Accelerated        OST                   Report          least every 120 days       days. Initial   2013.
Decisionmaking                                           on NEPA status and         report due:
                                                         projects of (1) projects   2/1/13. Next
                                                         requiring a financial      due: 8/1/13.
                                                         plan and (2) sampling
                                                         of at least 5% of
                                                         projects requiring an
                                                         EIS or EA in each
                                                         State.
                   13-FHWA,   FTA        Guidance        Guidance on dispute        None at this    In progress. Guidance drafted and in review
                   OST                                   resolution referrals       time            by program offices. Coordination with affected
                                                         and time limits.                           Federal agencies is underway. Part of Section
                                                                                                    1305 guidance effort.
                   14-FHWA,   FTA        Potential       Rulemaking on              NPRM 6/14       In progress. This is a potential rulemaking
                   OST                   Rulemaking      dispute resolution         FR None at      and may be addressed as part of the “clean-
                                                         referrals and time         this time       up” rulemaking as referenced in Section 1305
                                                         limits.                                    rulemaking effort.
1307:              15-FHWA    FTA        Guidance        Guidance on MOA            None at this    In progress. Guidance issued 9/25/12 as Q&A
Assistance to                                            with Federal and State     time            document. Determination on whether further
Affected Federal                                         agency that                                guidance needed not yet made. Part of
and State                                                establishes the                            Section 1305 guidance effort.
Agencies                                                 projects and priorities
                                                         to be addressed by
                                                         the use of the funds.




Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                         11
                                                                                  Anticipated
                                                                                  Completion
                            Other      Type of        Deliverable                 Date (Bold =
                            Modes      Deliverable/   According to the            Statutory
Section Title     Lead      Involved   Action*        Department                  Deadline)      Status According to the Department
1308:             16-FHWA   FTA        Rulemaking     Rulemaking on               NPRM 6/14      In progress. This is part of a 23 CFR 771
Limitations on                                        revising the deadline       FR None at     “clean-up” rulemaking as referenced in
Claims                                                for filing a claim for      this time      Section 1305 rulemaking effort.
                                                      judicial review to 150
                                                      days from 180 days.
                  17-FHWA   FTA        Guidance       Guidance on revising        None at this   In progress. This section will be included in
                                                      the deadline for filing a   time           the Section 1305 guidance effort.
                                                      claim for judicial
                                                      review to 150 days
                                                      rather than 180 days.
1309:             18-FHWA   FTA        Potential      Rulemaking on               NPRM 6/14      In progress. This is a potential rulemaking at
Accelerating                           Rulemaking     enhanced technical          FR None at     this time, and it may be addressed as part of
Completion of                                         assistance for              this time      the “clean-up” rulemaking as referenced in
Complex                                               complex projects                           the Section 1305 rulemaking effort.
Projects Within                                       within 4 years.
4 Years           19-FHWA   FTA        Guidance       Guidance on                 None at this   In progress. Part of Section 1305 guidance
                                                      enhanced technical          time           effort.
                                                      assistance for
                                                      complex projects
                                                      within 4 years.
1310:             20-FHWA   FTA        Potential      Guidance on                 None at this   Not started. Potential for further guidance.
Integration of                         Guidance       integration of planning     time
Planning and                                          and environmental
Environmental                                         review.
Review
                  21-FHWA   FTA        Rulemaking     Rulemaking on               NPRM           In progress. Coordinating timing with
                                                      integration of planning     11/20/13       performance measure rulemaking. This
                                                      and environmental           FR None at     schedule may change as a result of further
                                                      review.                     this time      discussion within the Department.




Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                       12
                                                                                 Anticipated
                                                                                 Completion
                             Other      Type of        Deliverable               Date (Bold =
                             Modes      Deliverable/   According to the          Statutory
Section Title      Lead      Involved   Action*        Department                Deadline)      Status According to the Department
1311:              22-FHWA   FTA        Rulemaking     Rulemaking on             NPRM           In progress. This section will be incorporated
Development of                                         integration of planning   11/20/13       into the rulemaking discussed in Section
Programmatic                                           and environmental         FR None at     1310. This schedule may change as a result
Mitigation Plans                                       review.                   this time      of further discussion within the Department.


1312: State        23-FHWA   FTA        Guidance       Update guidance on        None at this   In progress. Under development by program
Assumption of                                          state assumption of       time           offices.
Responsibility                                         responsibility for
for Categorical                                        categorical exclusions.
Exclusions
(CEs)
1313: Surface      24-FHWA   FTA        Required       Rulemaking to update      NPRM           In progress; behind schedule. The
Transportation                          Rulemaking     regulations.              5/24/13        Department is determining whether additional
Project Delivery                                                                 FR 6/28/13     modes (e.g., FAA, MARAD, NHTSA) will
Program                                                                                         participate in this rulemaking. Final rule
                                                                                                deadline will not be met; they anticipate a final
                                                                                                rule on 9/28/13.

                   25-FHWA   FTA        Guidance       Update guidance on        None at this   In progress.
                                                       state assumption of       time
                                                       responsibility for
                                                       categorical exclusions.

1314:              26-OST    FTA,       Guidance       Q&A guidance              None at this   In progress. Q&A document(s) have been
Application of               FHWA                      document(s) on the        time.          drafted and shared with modes for comment.
CEs for                                                application of CEs for
Multimodal                                             multimodal projects.
Projects




Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                       13
                                                                                  Anticipated
                                                                                  Completion
                           Other      Type of        Deliverable                  Date (Bold =
                           Modes      Deliverable/   According to the             Statutory
Section Title   Lead       Involved   Action*        Department                   Deadline)      Status According to the Department
1315: CEs in    27- FHWA   FTA,       Required       Rulemaking to qualify        NPRM           Complete. NPRM was published on 10/1/12.
Emergencies                OST        Rulemaking     ‘emergency repair’           10/30/12       Final rule was published in Federal Register,
                                                     projects as CEs.             FR 2/19/13     effective as of 2/19/13.

                28- FHWA   OST        Required       Regulation on                NPRM           In progress. Agencies solicited comments on
                                      Rulemaking     evaluation of                11/20/13       regulatory approach in NPRM for Section
                                                     alternatives to facilities   FR None at     1315(a). FHWA and FTA will be issuing rules
                                                     repeatedly requiring         this time      separately. FHWA plans to implement the
                                                     repair or                                   requirement in its Asset Management
                                                     reconstruction.                             rulemaking, with an NPRM scheduled to
                                                                                                 publish 11/20/13.
                29- FTA    OST        Required       Regulation on                IFR 4/1/13     In progress. FTA is implementing the
                                      Rulemaking     evaluation of                               requirement through rulemakings for new
                                                     alternatives to facilities                  Emergency Relief program (49 USC 5324).
                                                     repeatedly requiring                        They will issue an Interim Final Rule (IFR) in
                                                     repair or                                   place of a final rule.
                                                     reconstruction.

                30- FTA    OST        Required       Regulation on                ANPRM          In progress. Will be incorporated into the new
                                      Rulemaking     evaluation of                6/20/13        Transit Asset Management program (49 USC
                                                     alternatives to facilities   FR 10/1/14     5326). Program office drafting ANPRM for
                                                     repeatedly requiring                        Transit Asset Management Program.
                                                     repair or
                                                     reconstruction.




Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                       14
                                                                                 Anticipated
                                                                                 Completion
                             Other      Type of        Deliverable               Date (Bold =
                             Modes      Deliverable/   According to the          Statutory
Section Title     Lead       Involved   Action*        Department                Deadline)      Status According to the Department
1316: CEs for     31- FHWA   FTA        Required       Promulgate                NPRM           In progress; behind schedule. Combined
Projects Within                         Rulemaking     regulations defining as   2/28/13        rulemaking with Section 1317. NPRM
the Right-of-                                          CE projects in            Implement      published on 2/28/13. No schedule for final
Way                                                    operational right-of-     3/30/13        rulemaking.
                                                       way.
1317: CE for      32- FHWA   FTA        Required       Promulgate                NPRM           In progress; behind schedule. Combined
Projects of                             Rulemaking     regulations to            2/28/13        rulemaking with 1316. NPRM published on
Limited Federal                                        designate projects of     Implement      2/28/13. No schedule for final rulemaking.
Assistance                                             limited Federal           3/30/13
                                                       assistance as CEs
                                                       within 180 days of
                                                       enactment.
1318:             33- FHWA   FTA,       Initiative:    Survey uses of CEs        11/30/12       Complete. Survey conducted and
Programmatic                 OST        Survey &       by DOT since 2005,                       review/report posted on 12/7/2012. Federal
Agreements and                          Solicitation   publish review of                        Register notice of availability of report
Additional                                             survey, and solicit                      published 12/13/2012.
Categorical                                            requests for new CEs.
Exclusions        34- FHWA   FTA,       Required       Rulemaking to add         NPRM           In progress; behind schedule. The
                             OST        Rulemaking     new CEs suggested         1/29/13        Department now expects to publish the
                                                       by others and as listed   FR 10/1/14     NPRM in August 2013. Program offices
                                                       in statute.                              drafting rule.




Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                     15
                                                                                  Anticipated
                                                                                  Completion
                              Other      Type of        Deliverable               Date (Bold =
                              Modes      Deliverable/   According to the          Statutory
Section Title      Lead       Involved   Action*        Department                Deadline)      Status According to the Department
1319:              35- FHWA   FTA        Guidance       Interim guidance on       1/14/13        Complete. Internal interim guidance jointly
Accelerated                                             accelerated                              issued by FHWA & FTA on 1/14/13.
Decisionmaking                                          decisionmaking on
in Environmental                                        environmental
Reviews                                                 reviews.
                   36- FHWA   FTA        Potential      Regulation on             NPRM 6/14      In progress. This may be addressed as part of
                                         Rulemaking     accelerated               FR None at     the “clean-up” rulemaking as referenced in
                                                        decisionmaking on         this time      Section 1305 rulemaking effort.
                                                        environmental
                                                        reviews.

1320:              37- FHWA   FTA        Guidance       Guidance on               None at this   In progress. No additional details provided by
Memoranda of                                            memoranda of agency       time           the Department.
Agency                                                  agreements for early
Agreements for                                          coordination.
Early
Coordination       38- FHWA   FTA        Potential      Rulemaking on             NPRM           In progress. Potential to be combined with
                                         Rulemaking     memoranda of agency       11/20/13       rule for MAP-21 Sections 1310 and 1311.
                                                        agreements for early      FR None at     This schedule may change as a result of
                                                        coordination.             this time      further discussion within the Department.


1321:              39- OST    FHWA,      Report         For formula grant         None at this   In progress. No additional details provided by
Environmental                 FTA                       funds distributed, the    time           the Department.
Procedures                                              Secretary shall
Initiative                                              establish an initiative
                                                        to review and develop
                                                        consistent procedures
                                                        for environmental
                                                        permitting and report
                                                        results.




Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                      16
                                                                                        Anticipated
                                                                                        Completion
                                 Other       Type of         Deliverable                Date (Bold =
                                 Modes       Deliverable/    According to the           Statutory
 Section Title      Lead         Involved    Action*         Department                 Deadline)      Status According to the Department
 1323: Review of    40- FHWA                 Congressional   Report to Congress on      10/1/13        In progress. No additional details provided by
 Federal Project                             Report          results of review of                      the Department.
 and Program                                                 Federal project and
 Delivery                                                    program delivery, pre-
                                                             2005 projects.
                    41- FHWA                 Congressional   Report to Congress on      10/1/17        In progress. No additional details provided by
                                             Report          results of review of                      the Department.
                                                             Federal project and
                                                             program delivery,
                                                             post-2005 projects.
                    42- FHWA     FTA         Congressional   Report to Congress on      10/1/14        Not started. Awaiting rulemaking for Sections
                                             Report          types and justifications                  1316 and 1317.
                                                             for additional
                                                             categorical exclusions
                                                             under sections 1316-
                                                             1317.
Source: OIG compilation of information provided and confirmed by U.S. Department of Transportation agencies including OST, FHWA, and
FTA.
Key: NPRM = Notice of Proposed Rulemaking. ANPRM = Advanced Notice of Proposed Rulemaking. FR = Final Rule. IFR= Interim Final Rule.
Note: Statutory deadlines are in bold; all other deadlines are the Department’s estimated completion dates.
Note: There are 42 actions included in the Department’s current plans; however, some of the sections with anticipated rulemakings may eventually
be consolidated. For example, the Department plans to issue one rule to cover Sections 1316 and 1317.




Attachment. The Department’s Planned Actions To Implement Map-21 Subtitle C, as of March 27, 2013                                            17
